910 LOUISIANA
HOUSTON, TEXAS
77002-4995
TEL +1 713.229.1234
FAX +1 713.229.1522

November 16, 2020

BakerBotts.com

AUSTIN
BEIJING
BRUSSELS
DALLAS
DUBAI
HONG KONG

HOUSTON

LONDON
MOSCOW
NEW YORK
PALO ALTO
RIYADH
SAN FRANCISCO
WASHINGTON

083451.0102
BY ELECTRONIC FILING
Hon. Scott Harris, Clerk
Supreme Court of the United States
One First Street, NE
Washington, D.C. 20543
Re:

Aaron Michael Streett
TEL +1 713.229.1855
FAX +1 713.229.7855
aaron.streett@bakerbotts.com

All Saints’ Episcopal Church (Fort Worth) v. The Episcopal Diocese of Fort
Worth, et al., No. 20-534

Dear Mr. Harris:
The petition for a writ of certiorari in the above-referenced case was placed on the
Court’s docket on October 22, 2020. The due date for a brief in opposition is November 23,
2020.
Pursuant to this Court’s Rule 30.4, respondent respectfully requests that the time
within which to file a brief in opposition be extended to and including December 23, 2020. A
short extension will allow respondent to fully evaluate and respond to the petition, in light of
counsel’s obligations before this and other courts. An extension will not materially delay the
disposition of the case.
Very truly yours,

Aaron M. Streett
Counsel of Record for Respondent Episcopal
Diocese of Fort Worth
Co- Counsel:
Scott A. Brister
Hunton Andrews Kurth LLP
500 W. 5th Street, Suite 1350
Austin, TX 78701
scottbrister@huntonak.com
J. Shelby Sharpe
Sharpe & Rector, P.C.
6100 Western Place, Suite 1000
Fort Worth, Texas 76107
utlawman@aol.com

R. David Weaver
Weaver & Weaver, PLLC
1601 E. Lamar Blvd., Suite 102
Arlington, Texas 76011
rdweaver@arlingtonlawfirm.com

Hon. Scott Harris, Clerk

cc:

Counsel of Record for Petitioner:
Paul D. Clement
Kirkland & Ellis LLP
1301 Pennsylvania Avenue, NW
Washington, DC 20004
paul.clement@kirkland.com

55167920.1

2

November 16, 2020

